Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                 Reporting Entity: Department of State ‐ OIG
               Month Ending Date: 12/31/2009

                                                                    Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           Recovery Act TAFS         Award Type         US Indicator          Total Obligations      Total Gross        Direct or       Ordering TAFS
No.                                                                                                                               Outlays         Reimbursable
      Department of State ‐ OIG     (19‐0530 2009 \ 2010)       Contracts and          Y ‐ US
                                    State ‐ OIG ‐ Recovery     Orders (including 
                                    Act                         modifications)
  1                                                                                                                $37,608.12       $27,446.00 Direct
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                     Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         FY 2009 Non‐Recovery       Total FY 2009       Total FY 2009    FY 2010 Non‐Recovery       Total FY 2010     Total FY 2010 
No.                                        Act TAFS              Obligations        Gross Outlays          Act TAFS              Obligations      Gross Outlays
      Department of State ‐ OIG     (19‐0529 2009) State ‐              $59,536             $59,536 (19-0529 2010) State -              $21,131           $21,131
  1                                 OIG                                                            OI
                                                                                                   OIGG
  2
  3
  4
  5
  6
  7
  8
  9
 10
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
        Reporting OIG: Department of State ‐ OIG
    Month Ending Date: 12/31/2009

                           FTE Working on Recovery
                                                                                                                                 Testimonies:
      Fiscal Year             2009              2010                  Cumulative
       Newly Hired FTE 
                             0.00                  0.00                  0.00                                            Provided (monthly):        0
           (cumulative):

FTE Funded by Recovery 
                             0.15                  0.10                  0.25                                         Provided (cumulative):        0
 Act Funds (cumulative):

     FTE Not Funded by 
    Recovery Act Funds       0.50                  0.05                  0.55
          (cumulative):

            Complaints                 Whistleblower Reprisal Allegations                    Investigations          Audits / Inspections / Evaluations /          Training / Outreach
           Monthly Data                          Monthly Data                                Monthly Data                       Monthly Data                          Monthly Data
                                                                                                                                                                   Training Sessions 
              Received:       0                           Received:      0           Opened (this month):      0       Initiated (this month):      0                                    0
                                                                                                                                                                          Provided:
                                                                                   Active (as of the end of          In Process (as of the end 
                                                          Accepted:      0                                     0                                    2           Individuals Trained:     0
                                                                                               the month):                     of the month):
                                                                                                                             Completed Final 
                                                                                                                                                                  Hours of Training 
                                                                                         Pending Decision:     0              Published Work        0                                    0
                                                                                                                                                                         Provided:
                                                                                                                                     Products:
                                                                                                                              Priority Interim 
                                                                                                                                                                 Outreach Sessions 
                                                                                    Closed without Action:     0              Published Work        0                                    0
                                                                                                                                                                       Conducted:
                                                                                                                                     Products:
                                                                                             Accepted for                  Unpublished Work 
                                                                                                               0                                    1
                                                                                             Prosecution:                          Products*:
                                                                                      Prosecution Denied:      0

                                                                                   Referred for Alternative 
                                                                                                               0
                                                                                                Resolution:

  Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                           Completed Final 
                                                                                                                                                                   Training Sessions 
              Received:       2                           Received:      1          Closed without Action:     0           Published Work        2                                       1
                                                                                                                                                                          Provided:
                                                                                                                                  Products:
                                                                                                                            Priority Interim 
                                                                                              Accepted for 
                                                          Accepted:      0                                     0           Published Work        0              Individuals Trained:     20
                                                                                              Prosecution:
                                                                                                                                  Products:
                                                                                                                        Unpublished Work                          Hours of Training 
                                                                                      Prosecution Denied:      0                                 1                                       40
                                                                                                                                 Products*:                              Provided:

                                                                                   Referred for Alternative                                                      Outreach Sessions 
                                                                                                               0           Cumulative Total:        3                                    0
                                                                                                Resolution:                                                            Conducted:

                                                                                         Cumulative Total:     0
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of State ‐ OIG
  Month Ending Date: 12/31/2009

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
         1           Drafting 8 Statements of Work (SOWs) for program audits to be performed by Independent Public Auditing Firms (IPAs)
        2
        3
        4
        5
        6
        7
        8
        9
        10

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Initiate audit of Department tracking and oversight of ARRA funding
        2            Award contract for audit of State Department's tracking and reporting of funds provided by ARRA
        3            Develop a Statement of Work for an audit of State Department data centers
        4            Develop 7 additional SOWs covering approximately 90 percent of State Dept. ARRA expenditures
        5
        6
        7
        8
        9
       10
Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of State ‐ OIG
   Month Ending 
                 12/31/2009
           Date:

                                                                                    TRAINING ACTIVITIES
                                                                                                                                             Hours of
                                                                                                                  Length of                  Training                 Presentation    Average
                                                 Target                            Training Location   Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training                                  Training                  Provided                   with Other    Evaluation
                                                Audience                              (City, State)    Training               Participants                 Training
                                                                                                                   (hours)                   (length x                    OIGs         Rating
                                                                                                                                           participants)
      1
      2                                                                                                                                                0
      3                                                                                                                                                0
      4                                                                                                                                                0
      5                                                                                                                                                0
      6                                                                                                                                                0
      7                                                                                                                                                0
      8                                                                                                                                                0
      9                                                                                                                                                0
      10                                                                                                                                               0
      11                                                                                                                                               0
      12                                                                                                                                               0
      13                                                                                                                                               0
      14                                                                                                                                               0
      15                                                                                                                                               0
                                                                                                                   TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations
                                              Org anizations                          Outreach
                    Organization to w
                    Organization    which
                                     hich                     Description
                                                              Desc ription of                           Date of
     No.                                      Represented at                        Location (City,
                     Outreach Provided                          Outreach                               Outreach
                                                Outreach                               State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10
      11
      12
      13
      14
      15
